U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Barry Cashin v. United States, No. 20-6946

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 4,
2021. The government’s response is now due, after one extension, on March 29, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 28, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6946
CASHIN, BARRY
USA

COLLEEN P. FITZHARRIS
FEDERAL DEFENDER OFFICE
613 ABBOTT STREET
5TH FLOOR
DETROIT, MI 48226
313-967-5866
COLLEEN_FITZHARRIS@FD.ORG

